                                         UNITED STATES DEPARTMENT OF EDUCATION
                                                   OFFICE OF INS PECTOR GENERAL 

                                                                    REGION V 

                                                            111 NORTH CANAl.. SUITE 940 

                                                              CHICAGO.Il.LlNOIS 60606 


                                                                  FAX (312) 35)·0244
     Audit 	                                                                                                                                   Invesug:lIlon
(3 12) 886·6503 	                                                                                                                             (312)353·7891



                                                                                    Control Number EO-OIG/A05-C0028

                Dr. Stuart Fagan, President
                Governors State University                                                                       AUG 18 2003
                L University Parkway
                University Park, lL 60466

                Dear Dr. Fagan:

                This Final Audit Report presents the results of our audit of Governors State University's
                (GSU) administration of its Student Suppon Services and Upward Bound programs. The
                objective of our audit was to determine if, for the period September 1,2000, through
                August 31, 2001, GSU administered its Student Support Services and Upward Bound
                programs according to applicable law and regulations. Specifically, we determined
                whetherGSU

                • 	 submitted the required Student Support Services and Upward Bound programs'
                    performance reports in a timely manner and ensured that the information submitted
                    was supportable, complete, and accurate;
                • 	 demonstrated that it provided only e li gible services to the number of eligible students
                    required under its agreement with the U.S. Department of Education (ED);
                • 	 properly accounted for and completely and accurately reported on the use of Student
                    Support Services and Upward Bound funds;
                • only claimed expenses that were allowable and adequately supported; and
                • 	 claimed expenses that did not exceed the approved budgeted amounts.

                Our audit disclosed that GSU complied with the law and relevant regulations by
                submitting the required performance reports in a timely manner and providing only
                eligible services to the agreed upon number of eligible participants in its Student Support
                Services and Upward Bound programs.

                However, we found that GSU (l) operated a financial management system that was
                inadequate to completely and accuratdy account for Student Suppon Services and
                Upward Bound funds and inadequate to compare oUllays with approved budgeted
                amounts for each award year, (2) did not accurately report the accomplishments of its
                Student Support Services and Upward Bound programs, (3) did not maintain adequate
                support for all Student Support Services and Upward Bound expenses, and (4) incorrectly
                calculated indirect costs.




                      Our mlSllon Is to promote the efficiency, effectiveness. and Integrity of the Depsrfmenl's prog,..ms end opera lions.
In its response to our draft audit report, GSU agreed to implement all procedural
recommendations but did not agree with all the findings and monetary recommendations.
After reviewing GSU’s response and the additional documentation provided, we did not
make any changes to the findings or procedural recommendations. However, we did
remove the monetary recommendations related to GSU’s financial management system
(Finding No. 1) and indirect costs (Finding No. 4). We also revised the monetary
recommendation related to unsupported costs for the two programs and missing
equipment for the Upward Bound program (Finding No. 3). We have summarized
GSU’s comments after each finding and included the response in its entirety as an
attachment to this report.

                                            AUDIT RESULTS

Finding No. 1 GSU’s Financial Management System Did Not Completely Disclose
              the Financial Results of Its Programs

GSU’s financial management system did not provide a complete disclosure of GSU’s
Student Support Services and Upward Bound financial activities. GSU’s system was
inadequate to make a comparison of budgeted with actual Student Support Services and
Upward Bound expenses. Though GSU recorded each expense by type (object code), the
expense categories used by the Student Support Services and Upward Bound programs
for budgeting purposes did not exactly correspond to the expense categories used for
accounting purposes. In addition, GSU’s records did not show which expenses were
associated with each draw of Student Support Services and Upward Bound funds.

According to 34 C.F.R. § 74.21,1 a recipient’s financial management systems shall
provide for accurate, current, and complete disclosure of the financial results of the
project. Records must adequately identify the source and application of funds. These
records shall contain information pertaining to awards, authorizations, obligations,
unobligated balances, assets, outlays, income, and interest. Recipients’ financial
management systems should provide for a comparison of outlays with budget amounts
for each award.

GSU officials did not understand that they could create budget categories for the
programs that coincide with accounting categories. In addition, GSU did not have
written procedures for (1) distinguishing which expenses are associated with each draw
of federal funds and (2) ensuring program and accounting staff reconcile Student Support
Services and Upward Bound actual expenses with budgeted expenses on a regular basis.

Because its financial management system was inadequate for the purposes of the Student
Support Services and Upward Bound programs, we could not determine if GSU spent
more than the approved budgeted amounts during the audit period.




1
    All regulatory citations are as of July 1, 2000.


Final Audit Report                                     2               ED-OIG/A05-C0028
Recommendation

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer
(CFO), in conjunction with the Assistant Secretary for Postsecondary Education, direct
GSU to

1.1 	 Develop and implement written policies and procedures to ensure it (a) reconciles
      budgeted expenses with accounting records on a regular basis, (b) maintains the
      reconciliation with Student Support Services and Upward Bound program records,
      and (c) distinguishes which expenses are associated with each draw of federal
      funds.

Auditee Comments

GSU partially agreed with the finding and stated that the expenditure codes that GSU, a
State of Illinois agency, is mandated to use are different from the federal budget
categories used for the Student Support Services and Upward Bound programs. GSU
disagreed with our draft audit report recommendation that it refund $12,970 in Upward
Bound funds because, even though the amount was more than the carryover approved by
ED, the difference was less than the $25,000 threshold requiring agency carryover
approval. GSU also disagreed with having to transfer $1,362 in potential interest earned
into the Student Support Services and Upward Bound accounts for the same reason.
However, GSU agreed to develop and implement written policies and procedures to
ensure monthly reconciliation between its accounting system and the appropriate federal
budget categories.

OIG Response

We reviewed GSU’s accounting records and determined that it expended its carryover
funds during the 2000-2001 grant year. Per 34 C.F.R. § 75.253(c)(1) and (c)(1)(i), a
grantee may expend funds that have not been obligated at the end of a budget period for
obligations of the subsequent budget period if the obligation is for an allowable cost that
falls within the scope and objectives of the project. Though we have not changed our
finding or procedural recommendation, we eliminated our recommendations for monetary
recoveries.

Finding No. 2 GSU Did Not Accurately Report the Accomplishments of Its
              Programs

For the 2000-2001 grant year, GSU inaccurately reported the results of its Student
Support Services and Upward Bound programs. In addition, GSU did not always explain
the reasons why it did not meet established goals. In its 2000-2001 grant year
applications, GSU stated it would achieve 10 objectives for its Student Support Services
program and 10 objectives for its Upward Bound program. In its annual performance
reports, GSU reported all objectives for the Student Support Services program were 100
percent accomplished and/or ongoing. For the Upward Bound program, GSU reported



Final Audit Report	                         3                           ED-OIG/A05-C0028
achieving 7 of the 8 measurable objectives (2 Upward Bound objectives were not
measurable during the grant year). We reviewed GSU’s support for achievement of its
programs’ objectives and found it inadequate. GSU could not support achievement of 6
of its 10 Student Support Services program objectives and 4 of its 8 measurable Upward
Bound program objectives.

Pursuant to 34 C.F.R. § 74.51, recipients are responsible for managing and monitoring
each project, program, sub-award, function, or activity. Performance reports must
generally contain a comparison of actual accomplishments with the goals and objectives
established for the period and the reasons why the recipient did not meet established
goals, if appropriate.

ED awarded GSU $213,882 for the 2000-2001 grant year to provide services to Student
Support Services participants through 10 objectives. ED also awarded GSU $215,400 for
the 2000-2001 grant year to provide services to Upward Bound participants through 10
objectives. Had GSU reported that it did not achieve all its objectives, ED may not have
funded the 2001-2002 awards in their entirety.

GSU’s 2000-2001 performance reports were inaccurate because GSU did not effectively
monitor its Student Support Services and Upward Bound programs and failed to fully
utilize CARS.2 Based on discussions with GSU officials, the Student Support Services
and Upward Bound Directors used CARS to retrieve information on financial aid awards,
grade point averages, and courses taken by the program participants to process new
participants and to complete annual performance reports. They did not use CARS to
periodically monitor the services delivered to the participants or track the participants’
attendance at program activities.

Recommendation

We recommend that the CFO, in conjunction with the Assistant Secretary for
Postsecondary Education, direct GSU to

2.1 	 Develop and implement procedures for effectively using CARS to periodically
      monitor the progress toward achieving each objective and tracking (a) the academic
      progress of each program’s students, and (b) the activities in which students
      participate during the award year.

Auditee Comments

GSU agreed with the finding and stated that it will implement the recommendation.




2
  GSU’s commercial, off-the-shelf system that it used for operations, including accounting for funds,
tracking students’ progress, and maintaining personnel records.


Final Audit Report	                                  4                                ED-OIG/A05-C0028
Finding No. 3 GSU Did Not Maintain Adequate Support for All Student Support
              Services and Upward Bound Expenses


GSU did not have adequate documentation for all Student Support Services and Upward
Bound purchases and travel expenses. We judgmentally3 selected 50 Student Support
Services purchases and travel expenses totaling $53,124 (from a universe of $111,391).
We traced the expenses recorded in GSU’s financial management system to source
documents such as requisition forms, receipts, invoices, and lists of students who
attended trips. GSU officials could not provide source documents sufficient to support 4
of the 50 expenses. We also judgmentally4 selected 46 Upward Bound purchases and
travel expenses totaling $102,320 (from a universe of $178,820). We traced the expenses
recorded in GSU’s financial management system to source documents such as requisition
forms, receipts, invoices (including those from GSU’s food service), and lists of students
who attended trips. GSU officials could not provide source documents sufficient to
support 3 of the 46 expenses.

In addition, GSU used $49,335 (of total Upward Bound non-personnel expenditures of
$178,820) to purchase equipment during the 2000-2001 grant year. We conducted a
physical inventory but could not locate one piece of equipment (we only looked for those
pieces with a useful life of one year or more) purchased with $149 of Upward Bound
funds. We also compared the equipment purchased with GSU’s master inventory and
noted that not all of the equipment was included on the master inventory.

Pursuant to 34 C.F.R. § 74.21(b)(2), (3), and (7), a recipients’ financial management
systems shall provide for records that adequately identify the source and application of
funds for federally-sponsored activities; effective control over and accountability for all
funds, property, and other assets; and accounting records that are supported by source
documentation. According to 34 C.F.R. § 74.53(b), these financial records, supporting
documents, statistical records, and all other records pertinent to an award shall be
retained for a period of three years from the date of submission of the annual report.

In addition, 34 C.F.R. § 74.34(f) requires that a recipient's property management
standards for equipment acquired with federal funds include records that are maintained
accurately. These records should include (1) a description of the equipment, (2)
manufacturer's serial number or other identification number, (3) source of the equipment
(including the award number), (4) whether the title vests in the grantee or the federal
government, (5) acquisition date and cost, (6) information from which one can calculate
the percentage of federal participation in the cost of the equipment, (7) location and
condition of the equipment, (8) unit acquisition cost, and (9) ultimate disposition date. In
addition, the recipient's property management standards should provide that a physical
inventory of equipment is taken and the results reconciled with the equipment records at
least once every two years.


3
    See Objectives, Scope, and Methodology.
4
    See Objectives, Scope, and Methodology.


Final Audit Report                            5                           ED-OIG/A05-C0028
Without adequate documentation, GSU does not have evidence that 7 expenses and 1
missing piece of equipment totaling $3,213 were allowable. To be allowable, Office of
Management and Budget Circular A-21, Cost Principles for Educational Institutions,
Section (C)5, requires that, among other things, costs must be reasonable and allocable to
the grant. Without sufficient supporting documentation, GSU could not demonstrate that
$3,213 was allocable to the Student Support Services and Upward Bound programs. In
addition, ED has no assurances that $2,501 in Student Support Services and $712 in
Upward Bound purchases were authorized, approved, and used only for the purposes of
the Student Support Services and Upward Bound programs.

GSU has policies and procedures for purchases and travel expenses and for the
maintenance of equipment inventory. However, GSU management did not ensure that
Student Support Services and Upward Bound staff provided proper receipts prior to the
Business Office paying obligations and did not ensure that the master inventory for
equipment was complete and accurate.

Recommendations

We recommend that the CFO, in conjunction with the Assistant Secretary for
Postsecondary Education, direct GSU to

3.1 	 Return to ED (a) $2,501 in Student Support Services funds and (b) $712 in Upward
      Bound funds.

3.2 	 Ensure that all staff follow established policies and procedures for purchases, travel
      expenses, and equipment.

3.3 	 Ensure that it obtains adequate and complete supporting documentation such as
      receipts, invoices, lists of students who attend trips, and number of meals included
      on food service invoices, prior to paying obligations.

3.4 	 Retain all supporting documentation for the minimum time period required by
      34 C.F.R. § 74.53.

Auditee Comments

GSU stated that it found supporting documentation for all of the expenditures we
identified in our draft audit report as lacking support. GSU also stated that all equipment
had been located and included on the GSU Property Control system. GSU agreed to
implement policies and procedures to (1) ensure that all staff follow established policies
and procedures for purchases, travel expenses, and equipment; (2) ensure that it obtains
adequate and complete supporting documents, such as receipts, invoices, and lists of
students who attend trips, prior to paying obligations; and (3) retain all supporting
documentation for the minimum time period required by 34 C.F.R. § 74.53.


5
    As of August 8, 2000.


Final Audit Report	                          6                            ED-OIG/A05-C0028
OIG Response

We modified our finding and recommendations based on the additional documentation
GSU provided in response to our draft report. For the Student Support Services program,
GSU still did not provide us with documentation sufficient to support $2,501 in
expenditures. For the Upward Bound program, GSU did not provide us with
documentation sufficient to support $563 in expenditures. In addition, we were unable to
verify that all 16 pieces of missing equipment identified in our draft report were included
on the GSU Property Control system because we were not given an updated listing from
the Property Control system. However, when we conducted our physical inventory, we
were able to locate 15 of the 16 pieces of equipment. The piece that we could not locate
was purchased for $149.

Finding No. 4 GSU Incorrectly Calculated Indirect Costs

For the 2000-2001 grant year, GSU applied its indirect cost rate to its approved Upward
Bound award amount, plus funds carried forward from the prior year. It should have
applied its indirect cost rate to its modified total direct costs.

Office of Management and Budget Circular A-21, Cost Principles for Educational
Institutions, (H)(1)(a) and (H)(3)(e) state, in part, that an institution may apply the
indirect cost rate to the modified total direct costs for individual agreements to determine
the amount of indirect costs. This requires GSU to include only facilities and
administrative costs and to back out expenditures related to equipment, awards, tuition
remission, and stipends. Pursuant to 34 C.F.R. § 74.73, any funds paid to a recipient in
excess of the amount the recipient is entitled to receive constitutes a debt to the federal
government.

GSU charged $24,651 in indirect costs to the 2000-2001 Upward Bound program. GSU
informed us that it based indirect costs on modified total direct costs by project year.
However, according to its accounting records, GSU's modified total direct costs for the
2000-2001 project year were $210,476. Had GSU applied the 8 percent indirect cost rate
to its calculated modified total direct costs, it would have charged $16,838 ($210,476 x
.08) in indirect costs for the 2000-2001 project year. Therefore, according to its own
determination, GSU overcharged indirect costs by $7,813 ($24,651-$16,838).

GSU incorrectly calculated indirect costs because, during our audit period, GSU
accounting staff did not have a clear understanding of the indirect cost requirements.
Staff did not correctly determine modified total direct costs before applying the indirect
cost rate of 8 percent. Subsequent to our audit period, GSU adjusted its indirect cost
calculations for the third and fourth years (2001-2002, 2002-2003) of the grant. We
confirmed that GSU correctly adjusted indirect costs to ensure it did not overcharge the
Upward Bound program.




Final Audit Report                           7                            ED-OIG/A05-C0028
Recommendation

We recommend that the CFO, in conjunction with the Assistant Secretary for
Postsecondary Education, direct GSU to

4.1 	 Ensure all staff responsible for federal awards clearly understand the indirect cost
      requirements.

Auditee Comments

GSU agreed with the finding but disagreed with the recommendation to refund to ED
$7,813 in excess indirect costs claimed. GSU stated that it recognized its mistake and
adjusted its indirect costs calculation methodology in the third year of the grant (2001-
2002).

OIG Response

We reviewed the adjustments GSU made to its indirect cost calculations. Though GSU
incorrectly calculated and charged indirect costs for the 2000-2001 Upward Bound grant
year, we confirmed that GSU adjusted its indirect cost calculations for the third and
fourth years (2001-2002, 2002-2003) of the grant. The adjustments compensated for the
$7,813 in excess indirect costs charged during the 2000-2001 grant year. We have not
changed our finding or our procedural recommendation, but we removed the monetary
recommendation due to the adjustments GSU made.

                                   BACKGROUND
GSU, located in University Park, Illinois, serves undergraduate transfer students and
those seeking master's degrees. The Illinois General Assembly chartered GSU in 1969.
GSU is accredited by the North Central Association of Colleges and Schools.

According to 20 U.S.C. § 1070a-14 a Student Support Services program should (1) foster
an institutional climate supportive of the success of disadvantaged college students and
(2) provide supportive services to disadvantaged college students to enhance their
potential for successfully completing the postsecondary education in which they are
enrolled and increase their transfer rates from two-year to four-year institutions. Pursuant
to 20 U.S.C. § 1070a-13, an Upward Bound program should be designed to generate
skills and motivation necessary for success in education beyond high school among low-
income and potential first-generation college students and veterans. The goal of the
program should be to increase the academic performance and motivational levels of
eligible enrollees so that such persons may complete secondary school and successfully
pursue postsecondary educational programs. The Student Support Services and Upward
Bound programs are governed by the regulations contained in 34 C.F.R. Parts 74, 75,
645, and 646.




Final Audit Report	                          8                            ED-OIG/A05-C0028
GSU received its Student Support Services grant for the four-year period from September
1, 1997, through August 31, 2001. ED awarded GSU $213,882 for the 2000-2001 grant
year to provide services to 125 eligible Student Support Services participants. GSU
received its Upward Bound grant for the four-year period from September 1, 1999,
through August 31, 2003. ED awarded GSU $215,400 for the 2000-2001 grant year to
provide services to 50 eligible Upward Bound participants.

                OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of our audit was to determine if, for the period September 1, 2000, through
August 31, 2001, GSU administered its Student Support Services and Upward Bound
programs according to applicable law and regulations. Specifically, we wanted to
determine whether GSU (1) submitted the required Student Support Services and Upward
Bound programs’ performance reports in a timely manner and ensured that the
information submitted was supportable, complete, and accurate; (2) demonstrated that it
provided only eligible services to the number of eligible students required under its
agreement with ED; (3) properly accounted for and completely and accurately reported
on the use of Student Support Services and Upward Bound funds; (4) only claimed
expenses that were allowable and adequately supported; and (5) claimed expenses that
did not exceed the approved budgeted amounts.

To achieve our objectives, we reviewed

1. 	 information on GSU’s web site; GSU’s Student Affairs and Services organization
     chart; 2000-2001 participant rosters for the Student Support Services and Upward
     Bound programs; records related to GSU’s determination of the eligibility of
     services rendered, selection of program participants, and annual performance
     reports for the Student Support Services and Upward Bound programs that GSU
     submitted to ED;
2. 	 thirteen (of 125) judgmentally selected Student Support Services participant files;6
3. 	 five (of 50) judgmentally selected Upward Bound participant files;7
4. 	 GSU’s policies and procedures covering its Student Support Services and Upward
     Bound programs;
5. 	 schedules of activities, attendance rosters for 2000-2001 trips, and activities paid for
     with Student Support Services and Upward Bound grant funds;
6. 	 financial and compliance audit reports (Office of Management and Budget Circular
     A-133) prepared by GSU’s independent public accountant for the year ended June
     30, 2001;
7. 	 audit reports and supporting working papers for GSU’s internal audit of the Student
     Support Services and Upward Bound programs and internal controls over grant
     administration;
8. 	 records related to GSU’s accounting for and using grant funds during the period
     September 1, 2000, through August 31, 2001;

6
  We selected the first participant on GSU’s Student Support Services participant list and then every 10th 

participant. 

7
  We selected the first participant on GSU’s Upward Bound participant list and then every 10th participant.



Final Audit Report	                                  9                                ED-OIG/A05-C0028
9. 	  disbursement data in ED’s Central Automated Processing System/Grant
      Administration and Payment System (EDCAPS/GAPS);
10. 	 payroll records for all full-time and part-time Student Support Services and Upward
      Bound personnel;
11. 	 fifty judgmentally selected non-personnel transactions for the Student Support
      Services program totaling $53,124 (from a universe of $111,391); and 46
      judgmentally selected non-personnel transactions for the Upward Bound program
      totaling $102,320 (from a universe of $178,820);8 and
12. 	 documentation provided as support for non-personnel transactions.

We also (a) interviewed the Student Support Services and Upward Bound Directors and
GSU’s Controller, (b) confirmed that GSU adjusted its indirect cost calculations for the
third and fourth years (2001-2002, 2002-2003) of the Upward Bound grant, and
(c) conducted a physical inventory of equipment that GSU officials stated they located
subsequent to our draft audit report.

To achieve the assignment’s objectives, we extensively relied on computer-processed
data recorded in GSU’s CARS computer system. To assess the reliability of the data, we
compared it with source documents such as purchase orders, receipts, invoices, cancelled
checks, and student contact records. We also compared GSU’s financial data with data
from EDCAPS/GAPS. Based on these tests, we concluded that the financial and
performance reporting information in GSU’s CARS system was sufficiently reliable for
the purposes of our audit.

We performed our work at GSU’s administrative offices in University Park, Illinois, and
our office in Chicago, Illinois, from September 2002 through July 2003. We discussed
the results of our audit with GSU officials on March 10, 2003, and July 7, 2003. Our
audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.

               STATEMENT ON MANAGEMENT CONTROLS
As part of our audit, we assessed GSU’s system of management controls over
administering its Student Support Services and Upward Bound programs. The purpose of
our assessment was to determine the level of control risk; that is, the risk that material
errors, irregularities, or illegal acts may occur. We completed our assessment to assist us
in determining the nature and extent of tests needed to accomplish our audit objectives.

To make our assessment, we identified GSU’s significant management controls over the
Student Support Services and Upward Bound programs and classified them into the
following categories:

•       Requesting, accounting for, and using grant funds
•       Purchasing
8
  For both programs, we selected 10 transactions during the grant year that were less than $500. The
remaining transactions we selected were over $500.


Final Audit Report	                                 10                               ED-OIG/A05-C0028
•      Claiming travel expenses
•      Determining the eligibility of services rendered
•      Selecting program participants
•      Submitting required reports
•      Determining participant financial need
•      Monitoring staff time charged to the programs

Due to inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in GSU’s
management control structure. Our assessment did not disclose any significant
management control weaknesses that adversely affected GSU’s ability to administer the
Student Support Services and Upward Bound programs. However, our testing identified
significant management control weaknesses related to (1) accounting for and using grant
funds, (2) submitting required reports, and (3) purchasing. These weaknesses and their
effects are discussed in the Audit Results section of this report.

                        ADMINISTRATIVE MATTERS
Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
U.S. Department of Education officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Education
Department officials who will consider them before taking final Departmental action on
the audit.

                 Jack Martin, Chief Financial Officer 

                 Office of the Chief Financial Officer 

                 U.S. Department of Education 

                 Room 4E313                    

                 400 Maryland Avenue, SW

                 Washington, DC 20202 


                 Sally Stroup, Assistant Secretary 

                 Office of Postsecondary Education 

                 U.S. Department of Education 

                 Room 7115                    

                 1990 K Street, NW

                 Washington, DC 20006 


Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations
contained therein. Therefore, receipt of your comments within 30 days would be greatly
appreciated.


Final Audit Report                          11                         ED-OIG/A05-C0028
    In accordance with the Freedom of Infonnatlon Act (5 U.S.c. § 552), repons issued by
    the Office of Inspector General are available to members of the press and general public
    to the extent mfonnation contained therem is not subject to exemptions in the Act.


,                                        Sincerely,


                                     G< .       ~=--~




                                         Richard .
                                                          ,f)
                                                             ~
                                         Regional Inspector General
                                         for Audit

    Attachment




     Final Audit Report                         12                          EO·OIG/AOS·COO28
                                                                                             ATTACHMENT 





     ~
              Governors
              State
              Universi!Y_ _ _ _ _ _ _ _ _ _ _ _ _----;-;,---_-:;---;c:-=-;-;-;-=
                                                                                     UNIVERSITY PARK, IL 60466-0975
              June 23, 2003
              Richard J. Dowd
              Regional [nspector General for Audit
              United State Department of Education
              Office of lnspector General
              Region V
              III North Canal Street, Suite 940
              Chicago, Illinois 60606

              Control Number ED-OIG/AOS-C0028

               Dear Mr. Dowd:

              We are pleased that your audit disclosed that GSU complied with the law and relevant
              regulations. We take the program and its responsibi lities seriously and are extremely
              proud of the results we have achieved.

              As to the audit findings and recommendations included in the Draft Audit Report we
              submit the following responses:

               Finding No.1
              GSU's financial management System Did Not Completely Disclose the Financial Results
              of Its Programs

               Recommendation 1.1
               Return to ED $12,970 in Upward Bound funds.

               Response 1.1

               We disagree with the finding and the recommendation.
               Near the end of grant year I, GSU examined grant expenditures and projected that it
               would have a first year carryover of$76,273. We requested and received permission to
               carry over $76,273. After closing out grant year I, we realized that our actual carryover
               was $89,243. The difference was $12,970.

               Since the difference ($12,970) was less than the $25,000 threshold requiring agency
               carryover approval. we were not required to seek additional approval.

               The amount in question was drawn down in year 2 and was spent appropriately.

               Recommendation 1.2
               Develop and implement written policies to .. .




                                                    708/534-5000




Final Audit Report                                        1                                      ED-OIG/A05-C0028
                                                                                                ATTACHMENT 





              Response 1.2
              The University agrees with the finding and has already implemented the
              recommendation.

              This finding came about as the expenditure codes that GSU, a State of Illinois agency, is
              mandated to use, are different from the federal expenditure codes. To reconcile between
              the two ac~ounting systems, the project directors have already developed and
              implemented a plan whereby all grant expenditures are reclassified monthly on a
              Microsoft Excel spreadsheet into their appropriate federal budget categories.

              Recommendation 1.3
              Transfer $1 ,362 in interested earned on federal funds into the Student Support
              Services and Upward Bound Accounts.

              Response 1.3
              Since the University disagrees with the finding and recommendation 1.1 , we also
              disagree with having to repay interest.

              Finding No.2
              GSU Did Not Accurately Report The Accomplishments of Its Programs

              Recommendation 2.1
              GSU to develop and implement procedures to monitor progress .. .

              Response 2.1
              The University agrees with the flnding and will implement recommendation.


              Finding No.3
              GSU Did Not Maintain Adequate Support for All Student Support Services and Upward
              Bound Transactions

               Recommendation 3.1
               Provide support for all returned to ED (a) $12,202 in Student Support Services funds and
               (b) $9,645 into Upward Bound Funds

               The University has found supporting documentation for all of the questioned
               expenditures. Please see appendix 2 for Upward Bound and Student Support Services
               respectively for the requested documentation.

               Recommendation 3.2
               Locate the missing equipment or return to ED $11,379 in Upward Bound funds.

               Response 3.2
               All sixteen pieces of equipment have been located and included on the GSU Property
               Control system.




                                        TT"""""'I-'   --~-              - - - - . ' - - - - - - - -------.--




Final Audit Report                                        2                                      ED-OIG/A05-C0028
                                                                                               ATTACHMENT 





              Recommendation 3.3
              Ensure that all staff follow establi shed policies and procedures for purchase, travel
              expenses and equipment.

              Response 3.3
              The University will implement the recommendation.


              Recommendation 3.4
              Ensure that it obtains adequate and complete supporting documents, such as receipts,
              invoices and lists of students who attend trips, prior to paying obligations.

              The University will implement the recommendation.

              Recommendation 3.5
              Retain all supporting documentation for the minimum time period required ...

              The University will implement the recommendation.

              Finding No.4
              GSU Incorrectly Calculated Indirect Costs

               Recommendation 4.1
               Refund to ED $7,813 in excess indirect costs claimed.

              Response 4.1
              The University agrees with the finding but disagrees with the recommendation.

              The University recognized its mistake and adjusted its indirect cost rate calculation
              methodology in year 3 of the grant. Total indirect cost calculation for the four years of
              the grant now show that indirect costs claimed by GSU have been calculated in
              accordance with the modified total direct cost base identified by the auditors.

               We appreciate your consideration and commend the professionalism and courtesy shown
               by your staff.




               Dr. Stuart fagan, President




Final Audit Report                                         3                                           ED-OIG/A05-C0028
                                                                                             ATTACHMENT 





               Appendix
               Please note that cancelled checks are in the archives and can be made available upon
               request.

               Student Services:
              $3,383.10      #236 Holiday Inn - Memphis
              $1,458.00      #237 Holiday Inn - Houston
              $2,034.00      #239 Holiday Inn Select - Dallas, Fort Worth

                              The GSU purchasing Office contracted with and created University checks
                              for both of these hotels prior to the trip. We have the contracts on file.
                              We have the cancelled checks on file. We incurred other unchallenged
                              expenses that prove we were in those cities on the dates in question. Our
                              only mistake was in not gelling a paid invoice from the hotels when we
                              gave them the GSU checks. ]n our opinion, the documentation is adequate
                              to allow the expenses listed above.

               $800.00        #206 University ofToledo-Upward BOWld
               $175.00        #207 University of Toledo-Upward Bound

                              See attached receipt documenting registrations and meals for 10 students
                              and I staff person.

               $500.00        #217 Ar.mark
               $700.00        #254 Ararnark

                              Ararnark is the University food service/cafeteria/vending machine
                              provider. Staff first get an estimate from Aramark for services, Aramark
                              provices the services and Aramark invoices for services. The Aramark
                              invoice usually contains what was provided but does not always include
                              the number of persons involved. As long as the invoice agrees with the
                              estimate provided to the staff person, the invoice is approved and paid for
                              - see attached invoice.

               $621.74        #193 Heaven on 7th : - This is an instance where GSU prepaid for a
                              dinner on 121912000 at the restaurant based on the restaurant quote to our
                              purchasing department. We have the quote and cancelled check and feel
                              that this documentation is adequate. GSU does not require staff to bring
                              back receipts on prepaid items.


               $152.81        #260 Receipts are on file in the Planning Building Archives with the paid
                              documents.

               $500.00        #290 Big Poppa's - see attached invoices




Final Audit Report                                        4                                       ED-OIG/A05-C0028
                                                                                                    ATTACHMENT 





              $770.00        #183 MAEOPP - see attached invoice

              $264.00        # 188 Museum of Science and Industry - This was a prepaid item
                             processed through our purchasing department to purchase museum
                             entrance tickets. The check was created approximately four weeks in
                             advance of the event.  asu  policy does not require additional
                             documentation wbre prepayments are made.




              Upward Bound:
              $6,245.40   # 13 This amount was originally received and credited to our income
                          account in error. It was credited to the expense account on our journal
                          entry AC7037 on 9111 /02.

              $32.99         # 100 GSU Mail Services. lllis charge was made by one of our internal
                             service departments. Charges are made based on mail sent by this
                             department/program. No detail reeeipts are kept but detail records are
                             kept by our Mail Services de3partment.

              $2,128.00      #83 lLAEOPP - See attached statement from agency treasurer confirming
                             receipt of check and purpose and number of attendees.

               $88.00         #24 Fred Pryor Seminars - University practice is that invoices for prepaid
                              registrations are not required. Practice is for our invoice audit department
                              to keep copies of the registration fonus in the payment packages.

               $1 ,002.28     #97 GSU Central Stores - This is a charge made by one of our internal
                              service department operations where the only document held by the
                              ordering department is a delivery sheet which at that time did not include
                              prices. Documentation for this purchase is filed in the Planning Building
                              archives.




                            --------r.-- F=----' 1-1- -           •    11 ' T · ' I   I II· _   I   _   •   T   _   ~-_-   ,-===




Final Audit Report                                        5                                             ED-OIG/A05-C0028
